DOE/IG-0512




               AUDIT             RECRUITMENT AND RETENTION OF
              REPORT                SCIENTIFIC AND TECHNICAL
                                           PERSONNEL




                                           JULY 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                             Department of Energy
                                             Washington, DC 20585




                                                July 10, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Recruitment and Retention
                          of Scientific and Technical Personnel"


BACKGROUND

The Department of Energy (Department), as a result of budget reduction and Government-wide downsizing
goals, reduced Federal staff by about 24 percent between 1995 and 1998. This massive downsizing created
mission-critical staffing needs in a number of technical areas. As of May 2001, the Department's Federal
workforce consisted of about 9,900 permanent employees, including about 4,600 scientific and technical
staff. In a November 2000 report, the Office of Inspector General identified Human Capital as one of the
most significant challenges facing the Department.

The purpose of this audit was to determine whether the Department has been able to recruit and retain
scientific and technical personnel.


RESULTS OF AUDIT

The Department has been unable to recruit and retain critical scientific and technical staff in a manner
sufficient to meet identified mission requirements. Based on our analysis of attrition and hiring since 1999,
we determined that, as of January 2001, the Department faced an immediate need for as many as 577
scientific and technical specialists. Further, if this trend continues, the Department could face a shortage of
nearly 40 percent in these classifications within five years. Despite its 1998 Workforce for the 21st Century
Initiative, the Department had not developed a comprehensive workforce plan, nor had it fully exploited
available tools to recruit and retain staff. As a result, the Department may not have the Federal scientific
and technical expertise to effectively administer the work of its contractors. In such an environment, there
is an increased risk of a variety of management problems.

To its credit, the Department has recognized the seriousness of its human capital problem; however, the
scope of its corrective actions, including new and innovative approaches, needs to be broadened, and the
pace of implementation of these actions needs to be accelerated. We, therefore, recommended that the
Department develop and implement a comprehensive, multi-year workforce planning program, including
performance measures, that emphasizes the aggressive and creative use of available human resource tools to
attract and retain a highly skilled scientific and technical workforce.
                                                  -2-


Our recommendations are consistent with and complementary to the Office of Management and Budget
(OMB) bulletin on workforce planning and restructuring and the Department's response. The bulletin
required agencies to submit a workforce analysis to OMB and develop restructuring plans based on that
analysis. The Department, in response, is convening a Human Capital Summit to initiate its Human Capital
Management Plan. This plan is designed to rebuild the Department's workforce and make the Department
an employer of choice.


MANAGEMENT REACTION

Management generally concurred with the findings and recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science, and Environment
    Administrator, National Nuclear Security Administration
    Acting Director, Office of Management and Administration
RECRUITMENT AND RETENTION OF SCIENTIFIC AND
TECHNICAL PERSONNEL


TABLE OF
CONTENTS


                Overview

                Introduction and Objective .................................................................... 1

                Conclusions and Observations .............................................................. 2


                Efforts to Recruit and Retain Scientific and Technical Personnel

                Details of Finding .................................................................................. 4

                Recommendations ............................................................................... 11

                Management Comments ...................................................................... 12


                Appendices

                1. Scientific and Technical Personnel Series Included
                   in Review ....................................................................................... 13

                2. Prior Audit Reports........................................................................ 14

                3. Scope and Methodology ............................................................... 16
Overview
INTRODUCTION AND   The Department of Energy (Department) manages a large array of
OBJECTIVE          science-based and technology-dependent programs and activities in
                   support of its missions in energy resources, national security,
                   environmental quality, and science. Much of the Department’s work is
                   conducted by major contractors, which employ over 100,000 workers at
                   production facilities, environmental cleanup sites, and national
                   laboratories across the nation. As of May 2001, the Department’s
                   Federal workforce consisted of about 9,9001 permanent employees,
                   including about 4,600 scientific and technical staff.2 The Federal
                   workforce -- particularly those employees who possess specialized
                   skills in engineering, physics, information technology, and other
                   technical fields -- performs a critical contract management role in
                   assuring the quality, timeliness, and cost-effectiveness of contractor-
                   provided goods and services.

                   Consistent with Government-wide reinvention initiatives and budget
                   reductions that began in the 1990s, the Department achieved substantial
                   downsizing goals, reducing Federal staff by about 24 percent between
                   1995 and 1998. In so doing, however, the Department began to identify
                   mission-critical staffing needs in a number of technical areas. In
                   addition, oversight groups including the Office of Inspector General
                   (OIG), the Defense Nuclear Facilities Safety Board (DNFSB), and the
                   General Accounting Office (GAO) began to associate management
                   problems with the Department’s inability to hire quality technical and
                   management personnel.

                   In November 1998, the Secretary of Energy announced a “Workforce
                   for the 21st Century Initiative” (Workforce 21) designed to alleviate
                   critical skills and technical expertise shortages through targeted hiring,
                   career development, and workforce planning. Workforce 21 required
                   Department components to specifically identify critical staffing needs
                   and to engage in “rigorous workforce analysis and planning for the
                   future.”

                   The objective of this audit was to determine whether the Department
                   has been able to recruit and retain scientific and technical personnel.




                   _______________________
                   ¹ Total number of employees excludes the Department’s Power Marketing
                   Administration and the Federal Energy Regulatory Commission staff.
                   ² Appendix 1 contains a listing of the 57 job classifications considered to be
                   scientific and technical.


Page 1                                                                  Introduction and Objective
CONCLUSIONS AND   The Department has been unable to recruit and retain critical scientific
OBSERVATIONS      and technical staff in a manner sufficient to meet identified mission
                  requirements. Our analysis showed that, as of January 1999, the
                  Department had an immediate need for about 300 additional experts in
                  such areas as cyber security, nuclear engineering, health physics, and
                  material engineering. Based on our analysis of attrition and hiring since
                  1999, we determined that as of January 2001, the Department faced a
                  potential need for 577 scientific and technical specialists. If this trend
                  continues, the Department could face a shortage of nearly 40 percent in
                  these classifications within 5 years. Despite its Workforce 21 initiative,
                  the Department had not developed a comprehensive workforce plan,
                  nor had it fully exploited available tools to recruit and retain staff. As a
                  result, the Department’s ability to effectively oversee the work of its
                  contractors may continue to be hampered. Further, the risk that
                  additional management problems will occur may be increased.

                  To its credit, the Department has recognized the seriousness of its
                  recruitment and retention problems. “Human Capital Management” has
                  been identified as one of the Department’s major challenge areas and is
                  described in the Fiscal Year 2000 Performance and Accountability
                  Report. However, the resolution of human capital issues has not yet
                  been addressed in a comprehensive fashion that includes specific,
                  measurable goals for closing critical skill gaps. We, therefore,
                  recommended that the Department develop and implement a
                  comprehensive, multi-year workforce plan to improve the recruitment
                  and retention of scientific and technical personnel.

                  On May 8, 2001, the Office of Management and Budget (OMB) issued
                  Bulletin 01-07, Workforce Planning and Restructuring. The bulletin
                  required agencies to submit a workforce analysis to OMB addressing
                  such issues as the skills vital to accomplish agency goals, skills
                  imbalances, and challenges to the recruiting and retention of a high-
                  quality and diverse workforce. Based on the analysis, agencies are to
                  develop 5-year restructuring plans that will, among other things, reduce
                  the number of managers, reduce organizational layers, and ensure the
                  largest number of employees possible are in direct service delivery
                  positions. We believe our recommendations are consistent with, and
                  complementary to, OMB’s direction.




Page 2                                                    Conclusions and Observations
         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.



                                             ______(Signed)_________
                                             Office of Inspector General




Page 3                                       Conclusions and Observations
EFFORTS TO RECRUIT AND RETAIN SCIENTIFIC AND
TECHNICAL PERSONNEL

Shortfalls in Critical   The Department has been unable to recruit and retain critical scientific
Needs                    and technical staff in a manner sufficient to meet identified mission
                         requirements. As of January 1999, the Department had identified an
                         immediate need for 311 additional scientific and technical personnel.
                         Our analysis showed that, as of January 2001, the Department
                         experienced a net loss of an additional 266 personnel in technical job
                         categories. Moreover, given historical rates of hiring and attrition, the
                         Department may face a shortage of over 1,800 scientific and technical
                         specialists in less than 5 years’ time.

                                                     Identified Needs

                         Our analysis of 1999 data submitted to Department Headquarters by
                         program and field offices showed that, among the 57 job classifications
                         we deemed to be scientific or technical, the Department’s identified
                         need at the time was for 311 additional personnel. For example:

                         •   The Office of Defense Programs at Headquarters identified a critical
                             need for 24 additional scientific and technical positions. Some
                             specifically targeted positions were physicists, physical scientists,
                             computer scientists and computer engineers who were expected to
                             improve significantly the ability of the Federal staff to oversee the
                             highly technical stewardship activities at the contractor sites. We
                             identified during our audit that 15 of these positions were still
                             vacant.

                         •   The Richland Operations Office specified a critical need for 62
                             additional science and technical positions including 23 engineers,
                             physicists, hygienists, and scientists to provide oversight and
                             direction for over 120 facilities and the spent nuclear fuel and
                             radiological programs.

                         •   The Albuquerque Operations Office identified a critical need for 39
                             additional scientific and technical specialists including engineers,
                             scientists, and safety specialists. During the audit, our analysis
                             indicated that their Workforce 21 needs had grown by 56 percent.

                         In total, 39 Department program and field offices identified critical
                         hiring needs for scientific and technical staff. Since the 1999 data was
                         assembled, the Department has hired 272 personnel in the 57 specialty
                         areas but has lost 538 through attrition. Thus, as of January 2001, the




Page 4                                                                         Details of Finding
                            Department faced a need to hire up to 577 additional staff with
                            specialized expertise.

                                                           Continuing Shortfalls

                            While exact needs may be difficult to identify, an analysis of historical
                            attrition and hiring rates between Calendar Years 1996 and 2000
                            indicated that, absent significant changes to the Department’s
                            recruitment and retention activities, the gap in available scientific and
                            technical talent will grow more severe in future years. Since 1995, the
                            Department has lost an average of 320 employees per year in the 57 job
                            series we examined. During the same period, the Department hired an
                            average of only 97 new employees with these specialties each year.
                            The following chart illustrates that, if the prior 5-year attrition and
                            hiring remain constant over the next 5 years coupled with the critical
                            needs identified through Workforce 21, the Department could face a
                            need to hire as many as 1,818 specialists by the end of 2005.³

                                   Cumulative Scientific and Technical Staff Needs
                                           Projected Over a Five-Year Period

                                2,000

                                1,800

                                1,600                                                            1,818
                                1,400                                               1,588
                                1,200
                                                                      1,347
                                1,000
         Cumulative Staff                                1,099
               Shortage          800

                                 600
                                           838

                                 400

                                 200

                                   0
                                           2001           2002         2003         2004          2005



                                                                 Calendar Yearend


                            _______________________
                            ³ The OIG used the Workforce 21 Initiative as a baseline because it represented the
                             best available data at that time.


Page 5                                                                                      Details of Finding
Workforce      Several policy directives recognizing the importance of recruitment and
Requirements   retention of human resources have been established by the Department
               and the Executive Branch.

               As part of the Workforce 21 initiative, the Secretary of Energy
               specifically acknowledged shortages of skilled technical personnel and
               tasked Department components to address their critical skills needs. In
               response to a January 8, 1999, deadline, Department offices submitted
               analyses to the Director, Office of Management and Administration,
               enumerating their critical requirements. In total, program offices
               identified the need for about 300 additional personnel among 57
               scientific and technical job classifications.

               In June 2000, the President directed the heads of Executive departments
               and agencies to take actions necessary to improve the management of
               Federal human resources critical to accomplish agency missions in the
               most effective manner. Each Department and Agency was directed to:

               •   Fully integrate human resources management into the planning,
                   budgeting, and mission evaluation processes, and clearly state
                   specific human resources management goals and objectives in the
                   strategic and annual performance plans;

               •   Renew the commitment to recruit, develop, and manage the
                   workforce to ensure high performance; and

               •   Provide for the continued development of a highly competent corps
                   of human resource management professionals to assist agency line
                   managers.

               In January 2001, the Office of Personnel Management (OPM)
               developed a workforce planning model to assist agencies in assessing
               their human resource needs. OPM decided to develop the model to help
               agencies better align their personnel with their missions in light of the
               wave of upcoming retirements, and the need for new skills in the
               Federal workforce.

               Further, under the requirements of the Government Performance and
               Results Act of 1993, managers are required to establish goals and
               performance measures for program activities. In keeping with this
               requirement, the Department’s Strategic Plan should provide useful




Page 6                                                              Details of Finding
                 performance measures to help assess the progress toward meeting
                 organizational needs including the recruitment and retention of
                 technical and scientific staff.

                 Although Department management used the Workforce 21 initiative to
Need for a       specifically identify and document critical hiring needs, it had not
Comprehensive    developed a comprehensive workforce plan based on those needs, nor
Workforce Plan   had it developed measurable performance standards by which to judge
                 the success of its human capital management. Further, the Department
                 had not fully exploited available tools to recruit and retain staff with
                 specialized skills.

                                           Comprehensive Plan

                 By its own assessment, the Department achieved only “mixed” success
                 with its Workforce 21 initiative. Summary reports, including a report
                 by the Office of Human Resources and the Department’s September
                 2000 Strategic Plan, indicated that funding was not available to carry
                 out the proposed hiring. In our judgment, however, the extensive data
                 gathered during this effort could have formed the basis for a
                 Department-wide, multi-year plan that would help prioritize critical
                 needs on a corporate basis and detail strategies for addressing those
                 needs within available funding limits. Nevertheless, more than 2 years
                 after the data was gathered, no such plan had been developed. Further,
                 Department management acknowledged the need for such a plan in the
                 most recent Performance and Accountability Report, which called for a
                 “comprehensive and integrated human capital investment strategy.”
                 While this recognition is a positive first step, the need for action has
                 become critical.

                                         Performance Measures

                 The Department has not established quantifiable performance goals and
                 measures for implementing the recruitment and retention efforts. The
                 OIG urged the development of such measures for each of the
                 Department’s major challenges including Human Capital, in our
                 November 2000 report on Management Challenges at the Department
                 of Energy (DOE/IG-0491). The OIG also commented on the need for
                 specific measures addressing human capital issues in our special report
                 on Performance Measures at the Department of Energy (DOE/IG-
                 0504). In the OIG’s judgment, additional performance measures




Page 7                                                                Details of Finding
         associated with the recruiting and retention of technical personnel
         would help focus Department planning efforts in these areas.

                                             Available Tools

         Even without a comprehensive workforce plan or performance
         measures, certain tools developed to assist Federal agencies’
         recruitment and retention efforts were available to the Department. In
         general, the Department had not made full use of these tools. For
         example:

         •      Recruitment and relocation bonuses and retention allowances.
                During a 3-year period ending in 2000, the Department issued only
                157 bonuses and allowances for an average 4,862 technical and
                scientific personnel. Of these, only 28 recruitment bonuses were
                awarded. In discussing these matters with Headquarters Program
                and Field Office officials, we were advised that the limited use of
                these tools was primarily due to concerns that the morale of on-
                board employees who did not receive such bonuses would suffer.

         •      Excepted service. The Department was granted excepted service4
                authority for 200 positions in its enabling legislation in 1977.
                However, it did not begin to use this authority until 1995 when it
                received an additional 200 positions. Since then, the Department
                has made only 99 excepted service appointments involving
                scientific and technical personnel. For all job classifications, there
                were 700 excepted service positions, and as of June 22, 2001, 140
                such employees were on board.

            Headquarters and Field Office officials we spoke to believed the
            process required to obtain approval for use of an excepted service
            position was long and laborious. However, according to Human
            Resource officials, in August 2000 the Department removed the
            requirement that excepted service appointments below the Senior
            Executive Service be approved by its Executive Resources Board
            thus removing a previously time-consuming step. We also learned
            during our audit that the National Nuclear Security Administration
            (NNSA), through its own enabling legislation, had planned to use
            up to 300 excepted service appointments. These appointments,
            according to NNSA officials, would provide managers the
            flexibility to attract and retain key personnel needed to meet their
            mission requirements.
         _______________________
         4
             The “excepted service” consists of all positions in the Executive Branch that by
             statute, the President, or the Office of Personnel Management has specifically
             excepted from competitive service or the Senior Executive Service.

Page 8                                                                     Details of Finding
         •   Demonstration project. In April 2000, an internal Research &
             Development Technical Capability Panel report recommended the
             development of a personnel demonstration project to create more
             flexible compensation and performance systems for the
             Department’s research and development positions. This approach
             was encouraged by OPM, which expressed a willingness to
             recommend models for a demonstration project that would be
             appropriate for the Department. OPM also offered staff to work
             with the Department to establish the project. However, according to
             the Department, the use of demonstration project authority requires
             documentation of a well-defined problem, along with a detailed
             plan for addressing the problem through use of alternative personnel
             authorities. According to sources at OPM, this developmental and
             approval process (which includes congressional oversight, union
             consultation, and OPM review of the experimental design), entails
             an 18-24 month period, plus additional time at the agency level for
             implementation planning. This lengthy process has discouraged
             many agencies with immediate needs from pursuing demonstration
             project authority.

             Rather than embark on such a long and uncertain journey, the
             Human Resources Director and other individuals familiar with the
             scientific and technical recruitment challenge felt that a more
             effective approach would be to make better use of existing tools and
             flexibilities as well as to consider special legislative authorities for
             the Department (such as the recently-enacted NNSA Act personnel
             authorities and successfully obtained legislation for retention
             incentives at Departmental closure sites). At this juncture, the
             Department believed that it would be most prudent for any further
             decisions on the pursuit of demonstration project authority, new
             legislation, and/or other major corporate human resources efforts to
             flow from the Department’s human capital management and
             workforce restructuring initiatives.

         For comparison purposes, we discussed recruitment and retention
         strategies with representatives from the Department of Defense (DOD),
         the National Institute of Standards and Technology (NIST), the
         National Science Foundation (NSF) and the National Institutes of
         Health (NIH). Each of these agencies had implemented various
         programs and practices to alleviate difficulties in recruiting and
         retaining scientific and technical personnel. For example, NIH made
         much greater use of its excepted service appointment authorities.




Page 9                                                          Details of Finding
                          Officials there liked excepted service’s broad hiring and pay
                          flexibilities. Two agencies, NIST and DOD, participated successfully
                          in alternative personnel demonstration initiatives. The initiatives
                          included such components as direct hire authority, pay banding, greater
                          use of excepted service positions, recruitment and relocation bonuses,
                          and retention allowances. In the opinion of the agency representatives
                          we spoke to, these initiatives helped alleviate difficulties in recruiting
                          and retaining scientific and technical staff. Similar successes were also
                          experienced at NSF.

Essential Resources Not   Without a more comprehensive and proactive approach to human
Available                 capital issues, the Department cannot ensure that scientific and
                          technical resources needed will be available to meet its mission
                          requirements. For example, if current trends continue, the Department
                          may not be in a position to provide essential Federal contract
                          management activities at its contractor-operated facilities. Based on
                          past experience, this could lead to ineffective, inefficient and
                          unresponsive contractor operations.

                          Officials at several sites we visited expressed concern about their ability
                          to perform adequate contract management without additional technical
                          staff. Oakland Operations Office officials told us that responsibility for
                          emergency management, laser safety, seismology, high explosives
                          safety, and nuclear weapons at seven sites rested with only one
                          employee for each area. Such circumstances have contributed to a
                          number of avoidable incidents at two laboratories monitored by
                          Oakland and Albuquerque. For example:

                          •   A two-year shutdown at Livermore’s plutonium facility was partly
                              attributed to the high turnover of Federal facility representatives.
                              Oakland’s site manager asserted that Department facility
                              representatives’ presence at contractor sites would have helped
                              ensure that approved procedures were followed.

                          •   At Building T-35 in Los Alamos where a 6,000 gallon mineral oil
                              leak destroyed over $1 million worth of laser equipment, no
                              Federal officials were present. A Los Alamos Area Office official
                              asserted that a more frequent presence could have contributed to
                              the contractor being more attentive to operating procedures.

                          Operations Office officials at Chicago and Oakland also expressed
                          concern with the inability to obtain cyber security expertise. Both
                          offices have employees with extensive knowledge of physical security
                          but little cyber security expertise. These officials were concerned

Page 10                                                                          Details of Finding
                  that without qualified cyber security staff, the Department has an
                  increased risk for intrusion and espionage.

                  Additionally, cost overruns and schedule slippages have occurred over
                  the past decade on Department projects. Some external oversight
                  groups, including GAO and the DNFSB, have attributed such issues, in
                  part, to inadequate contract management and insufficient attention to
                  technical, institutional, and management issues. A recent GAO report,
                  for example, stated that the National Ignition Facility project, originally
                  expected to cost $2.1 billion and be completed in 2002, was likely to
                  cost $3.9 billion and be delayed 6 years. The report attributed part of
                  the responsibility for the increase and delay to staff oversight roles that
                  were diluted by other competing responsibilities. In a February 1998
                  Annual Report, the DNFSB made a similar observation. The DNSFB
                  stated it was not clear the Department fully understood the importance
                  of sufficient management attention and commitment to ensuring that the
                  Department hired and retained a technical workforce to accomplish
                  present and future missions.

RECOMMENDATIONS   We recommend that the Acting Director, Office of Management and
                  Administration, in conjunction with Departmental managers:

                  1.   Develop and implement a comprehensive multi-year workforce
                       planning program by establishing a Department-wide human
                       capital management strategy and preparing and submitting a 5-year
                       workforce restructuring plan for the Department with its Fiscal
                       Year 2003 budget as required under OMB Bulletin 01-07;

                  2.   Develop quantifiable recruitment and retention performance
                       measures that will form a basis to monitor the Department’s
                       progress in solving the human capital resource problem regarding
                       scientific and technical personnel; and

                  3.   Aggressively and creatively utilize available human resources tools
                       and flexibilities, as well as other means to rebuild and retain a
                       highly skilled scientific and technical workforce at the Department
                       of Energy in accordance with its multi-year workforce planning
                       program.




Page 11                                                                Recommendations
MANAGEMENT REACTION   Management generally concurred with the findings and
                      recommendations.




Page 12                                                        Management Comments
Appendix 1




Page 13      Personnel Series
                    Included
Appendix 2

                                        PRIOR AUDIT REPORTS


Office of Inspector General Reports:

•   Performance Measures at the Department of Energy, (DOE/IG-0504, May 2001). The Department did
    not have any agency-wide performance measures in the Accountability Report that would address the
    considerable challenge associated with the loss of a skilled workforce. Since 1995, the Department has
    experienced a substantial downsizing of its Federal staff. Also, the fraction of staff eligible for
    retirement has increased from 6 to 11 percent and will increase to 34 percent in the next 5 years. The
    Department’s major contractors have experienced similar losses. The decline in staffing has left the
    Department with the challenge of reinvesting in its human capital to ensure that there are enough of the
    right-skilled people necessary to successfully meet its missions. Developing a comprehensive and
    integrated Departmentwide human capital investment strategy with appropriate performance measures
    is, in our judgment, key to resolving this complex issue.

•   Management Challenges at the Department of Energy, (DOE/IG-0491, November 2000). While it is
    evident that management recognizes the seriousness of its human capital problem, the need for action to
    ensure that the Department has the technical, scientific, and management resources it needs to meet
    mission requirements has become critical.

•   The U.S. Department of Energy’s Efforts to Preserve the Knowledge Base Needed to Operate a
    Downsized Nuclear Weapons Complex, (DOE/IG-0428, October 1998). The Department has not
    developed a coordinated, integrated program to preserve the knowledge base of the downsized nuclear
    weapons complex. Without such a program, the Department risks not identifying and using all
    information that would provide continued high confidence in the nuclear stockpile.

General Accounting Office Reports:

•   Federal Employee Retirements: Expected Increase Over the Next 5 Years Illustrates Need for
    Workforce Planning, (GAO-01-509, April 2001). GAO concluded that a substantial portion of the
    federal workforce will become eligible to retire, and many who are eligible will retire between Fiscal
    Years 1999 and 2006.

•   Major Management Challenges and Program Risks: Department of Energy, (GAO-01-246, January
    2001). GAO concluded that several studies have pointed to the Department’s need to deal
    comprehensively with the challenge of recruiting and training the next generation of technical and
    managerial staff before it reaches crisis proportions by the end of this decade.

•   GAO High-Risk Series: An Update, (GAO-01-263, January 2001). GAO reported in the area of
    strategic human capital management that, after a decade of Government downsizing and curtailed
    investments in human capital, it is becoming increasingly clear that today’s federal human capital
    strategies are not appropriately constituted to adequately meet current and emerging needs of
    Government and its citizens in the most effective, efficient, and economical manner possible.

Page 14                                                                                 Prior Audit Reports
•   National Ignition Facility: Management and Oversight Failures Caused Major Cost Overruns and
    Schedule Delays, (GAO/RCED-00-271, August 2000). GAO reported that DOE acknowledged that its
    managers in Headquarters and at the Laboratory site office did not properly oversee NIF and, as a result,
    remained unaware of major cost and schedule problems until several months after Laboratory managers
    had first documented them.

Other Related Reports:

•   Commission on Maintaining United States Nuclear Weapons Expertise: Report to the Congress and
    Secretary of Energy, Pursuant to the National Defense Authorization Acts of 1997 and 1998. (March 1,
    1999). The Commission found that (1) the nuclear weapons workforce is aging and, indeed, is
    considerably older than the national average of scientific, engineering, and technical personnel engaged
    in other endeavors; (2) the marketplace for hiring new scientific, engineering, and technical talent is
    highly competitive; (3) the number of college students in many of the scientific and engineering fields
    relevant to nuclear weapons work is shrinking while the overall needs in the economy for such
    graduates continue to grow; and, (4) DOE continues to have a number of management and program
    planning practices, which hinder recruiting and retention.

•   Defense Nuclear Facilities Safety Board: Eighth Annual Report to Congress, (February 1998). The
    accomplishment of DOE’s present and future missions in a manner that protects the health and safety of
    workers and the public depends heavily on the technical qualification of DOE personnel who are
    assigned safety-related responsibilities. It is not clear that DOE has fully understood the importance of
    this message or that sufficient senior management attention and commitment are being applied to this
    issue.




Page 15                                                                                 Prior Audit Reports
Appendix 3

SCOPE         The audit was conducted from June 2000 to May 2001 at Department of
              Energy Headquarters and the Oakland, Chicago, Albuquerque, and Oak
              Ridge Operations Offices. We also interviewed officials at the
              Department of Defense (DOD), National Aeronautics and Space
              Administration (NASA), National Institute of Standards and
              Technology (NIST), National Science Foundation (NSF), National
              Institutes of Health (NIH), and Office of Personnel Management
              (OPM).


METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed regulations relating to recruiting and retaining personnel;

              •   Held discussions with Department Headquarters and field personnel
                  to determine the status of recruitment and retention of scientific and
                  technical personnel in their organizations, recruitment and retention
                  techniques currently being employed, and problems being
                  encountered in the recruitment and retention area;

              •   Analyzed data from the Department’s automated personnel tracking
                  system to determine the length of time it took to hire scientific and
                  technical personnel;

              •   Analyzed Workforce 21 plans from Headquarters and Field Offices
                  to determine their critical staffing needs for scientific and technical
                  personnel;

              •   Used historical information from Calendar Year 1996 through
                  Calendar Year 2000, from the DOE INFO database, a Departmental
                  data repository for workforce and payroll transactions, to project the
                  number of staff needed to replace departing scientific and technical
                  staff over the next five years;

              •   Held discussions with DOD, NASA, NIST, NIH, and NSF officials
                  to determine how they were managing recruitment and retention of
                  their scientific and technical personnel; and

              •   Held a discussion with an OPM official to determine recruiting and
                  retention tools currently available to agencies and tools that OPM is
                  envisioning in the future.




Page 16                                                      Scope and Methodology
          We used advanced audit techniques to assess data reliability. We
          obtained DOE INFO data in electronic form and used computer-assisted
          techniques to identify anomalies. While we did note some data
          inaccuracies, we discussed these with a Department official and
          determined that the data was sufficiently reliable for the purposes of our
          audit. The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Because our review
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit.

          Management concurred with our recommendations and waived the exit
          conference.




Page 17                                                 Scope and Methodology
                                                                           IG Report No. DOE/IG-0512

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
